TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Implementing Better Management Controls
                   Would Improve the Exempt Organizations
                    Function’s Ability to Properly Oversee
                        and Timely Process Referrals



                                           June 1, 2012

                              Reference Number: 2012-10-058




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                     HIGHLIGHTS


IMPLEMENTING BETTER MANAGEMENT                          processed timely. For example, TIGTA
CONTROLS WOULD IMPROVE THE                              determined that the Referral Unit 1) could not
EXEMPT ORGANIZATIONS FUNCTION’S                         readily locate 31 of the 120 referrals TIGTA
ABILITY TO PROPERLY OVERSEE AND                         requested and 2) did not control 350 referrals
                                                        involving partnership returns upon receipt in the
TIMELY PROCESS REFERRALS
                                                        Referral Unit. In addition, TIGTA identified some
                                                        inaccuracies and omissions of key information
Highlights                                              on the EO Referral Database, which is used to
                                                        track and control referrals received by the
                                                        Referral Unit.
Final Report issued on June 1, 2012
                                                        Also, Referral Unit management stated that
Highlights of Reference Number: 2012-10-058             current measures could not be met and needed
to the Internal Revenue Service Acting                  to be reconsidered. For example, the Internal
Commissioner for the Tax Exempt and                     Revenue Manual states that Referral Unit
Government Entities Division.                           employees should make a determination as to
                                                        whether a referral should be examined within
IMPACT ON TAXPAYERS                                     60 calendar days of receipt. However, almost
Referrals alert the Exempt Organizations (EO)           25 percent of these referrals took more than
function to potentially serious violations of           120 calendar days to process.
Federal tax law. While the EO function has              EO function management was aware of
greatly improved its timeliness for                     deficiencies in the referral process and has been
acknowledging receipts to submitters, the               focusing on making improvements. TIGTA
EO function did not always control referrals or         believes that implementing better management
process referrals timely. If referrals are not          controls would help improve the EO function’s
properly accounted for or worked timely, the            ability to properly oversee referrals.
EO function may not identify tax-exempt
organizations that are potentially in violation of      WHAT TIGTA RECOMMENDED
Federal tax law or have referrals ready when
                                                        TIGTA recommended that the Director, EO,
new examination cases are needed.
                                                        Tax Exempt and Government Entities Division,
WHY TIGTA DID THE AUDIT                                 ensure all referrals are properly controlled,
                                                        guidance is developed and updated,
This review was requested by the EO function            performance goals are developed, and
and addresses the Tax Compliance Initiatives            timeliness measures are updated. TIGTA also
major management challenge. The overall                 recommended the IRS evaluate the priority for
objective of this review was to determine               additional funding for a more robust case
whether the EO function is accurately                   management system.
accounting for referrals of alleged violations of
Federal tax law, acknowledging receipt to               In their response to the report, IRS officials
submitters, and tracking and monitoring the time        agreed with the recommendations and plan to
periods for working referrals.                          take appropriate corrective actions.

WHAT TIGTA FOUND
The Referral Unit has dramatically improved the
timeliness of acknowledgement letters being
sent to submitters of referrals; however, the
EO function faces significant challenges in
managing referrals. Specifically, the
EO function could not readily locate referrals it
received, ensure all referrals it received were
being controlled, or ensure referrals were being
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              June 1, 2012


 MEMORANDUM FOR ACTING COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                ENTITIES DIVISION


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Implementing Better Management Controls
                              Would Improve the Exempt Organizations Function’s Ability to
                              Properly Oversee and Timely Process Referrals (Audit # 201110023)

 This report presents the results of our review relating to the Exempt Organizations (EO)
 function’s referral process. The overall objective of this review was to determine whether the
 EO function is accurately accounting for referrals of alleged violations of Federal tax law,
 acknowledging receipt to submitters, and tracking and monitoring the time periods for working
 referrals. This review was requested by the EO function, is included in our Fiscal Year 2012
 Annual Audit Plan, and addresses the Tax Compliance Initiatives major management challenge.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.
                                Implementing Better Management Controls Would
                               Improve the Exempt Organizations Function’s Ability
                                to Properly Oversee and Timely Process Referrals




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Referral Unit Dramatically Improved Its Timeliness
          for Acknowledging Receipts of Referrals..................................................... Page 5
          Referrals Were Not Adequately Controlled .................................................. Page 5
                    Recommendation 1:........................................................ Page 11

                    Recommendations 2 and 3: .............................................. Page 12

          Performance Goals Were Not Developed and Timeliness
          Measures Are Not Being Met ....................................................................... Page 12
                    Recommendation 4:........................................................ Page 14

          Referral Processing Would Benefit From Transitioning
          to a More Robust Case Management System ............................................... Page 14
                    Recommendation 5:........................................................ Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Outcome Measures............................................................... Page 21
          Appendix V – Management’s Response to the Draft Report ....................... Page 22
         Implementing Better Management Controls Would
        Improve the Exempt Organizations Function’s Ability
         to Properly Oversee and Timely Process Referrals




                  Abbreviations

EO          Exempt Organizations
IRM         Internal Revenue Manual
IRS         Internal Revenue Service
RCCMS       Reporting Compliance Case Management System
TEFRA       Tax Equity and Fiscal Responsibility Act of 1982
                        Implementing Better Management Controls Would
                       Improve the Exempt Organizations Function’s Ability
                        to Properly Oversee and Timely Process Referrals




                                       Background

The Internal Revenue Service (IRS) receives thousands of complaints (hereafter referred to as
referrals) alleging that tax-exempt organizations are potentially violating Federal tax law. For
example, these referrals involve potentially serious allegations of:
      Political intervention by religious or other organizations.
      Community organization decisions benefitting management board members and not the
       community at large.
      Inappropriate lobbying and fundraising activities.
      Noncompliance related to nonfiling, employment tax, and unrelated business income
       issues.
The Exempt Organizations (EO) function within the Tax Exempt and Government Entities
Division is responsible for assessing referrals from the general public, members of Congress, and
Federal and State agencies, as well as other parts of the IRS. As shown in Figure 1, these
referrals are centrally processed in the EO Classification Referral function (hereafter referred to
as the Referral Unit) in Dallas, Texas.
                               Figure 1: EO Referral Process




                             Source: Discussions with EO function officials.

                                                                                            Page 1
                            Implementing Better Management Controls Would
                           Improve the Exempt Organizations Function’s Ability
                            to Properly Oversee and Timely Process Referrals



After receipt, the referrals are controlled on the EO Referral Database and the Referral Unit
sends an acknowledgement letter to all non-IRS submitters who have provided a complete name
and address. The Internal Revenue Code1 prohibits the IRS from disclosing whether it has
initiated an examination or the results of any examination. Therefore, the acknowledgement
letter states that the referral has been received, but the IRS cannot communicate any actions it
may or may not be taking based on the referral.
Experienced Referral Unit employees review the allegations to evaluate the facts and determine
whether the EO function should undertake an examination of the organization. Some referrals
require further review and are forwarded to a three-member committee to decide whether to
proceed with an examination.2 Before making a decision to select a referral for examination,
Referral Unit employees or committee members must determine that the facts included in the
referral create a reasonable belief that the allegations may be true. If the Referral Unit or a
committee recommends examining an organization, the referral will be put in “pending” status
on the EO Referral Database and the referral and related supporting documentation will be filed.
Upon request by a group manager for new cases, referrals in pending status will be forwarded to
an agent for examination. The EO function can generally only determine if there were potential
violations of Federal tax law through an examination. Therefore, it is important that the
EO function evaluate referrals in a timely manner to identify those that should be examined.
The Referral Unit received more than 13,000 referrals
alleging potential noncompliance with Federal tax law
                                                                           The EO Referral Unit received
during the period October 1, 2009, through June 17,                         more than 13,000 referrals
2011. However, the EO function has limited resources                        alleging tax law violations
to conduct examinations to determine if actual tax law                     by tax-exempt organizations
violations of have occurred. As such, the Referral Unit                      between October 1, 2009,
must effectively and efficiently review referrals to                            and June 17, 2011.
provide examiners cases with the best potential. If
tax-exempt organizations are not complying with
Federal tax law, the impact could be significant. Some
tax-exempt organizations receive millions of dollars tax
free. If these organizations are determined to have
violated Federal tax law, they could be penalized or
potentially lose their tax-exempt status, in which case
their revenue would become taxable.
This review was requested by the EO function. The request for assistance noted that, despite
efforts to identify and implement improvements to manual and online referral processes, the

1
 § 6103 (2011).
2
 Committees review referrals containing evidence of allegations involving: 1) political or lobbying activities,
2) financial transactions with known or suspected terrorist connections, 3) churches, 4) high impact issues, and
5) information submitted by elected officials or members of Congress.
                                                                                                              Page 2
                        Implementing Better Management Controls Would
                       Improve the Exempt Organizations Function’s Ability
                        to Properly Oversee and Timely Process Referrals



EO function continues to discover deficiencies. Our review focused on determining whether the
EO function is accurately accounting for referrals of alleged violations of Federal tax law,
acknowledging receipt to submitters, and tracking and monitoring the time periods for working
referrals. We did not review the quality of the referral decisions to select or not select the
referral for examination.
During our review, we raised issues and the EO function took actions to address them. Actions
taken by IRS management are noted throughout this report as Management Actions. In addition,
this audit was conducted while the EO function was making improvements to its referral process.
As a result, this report may not reflect the most current status of the EO function’s efforts to
oversee referrals.
This review was performed at the EO function’s Examination Office in Dallas, Texas, during the
period June through November 2011. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                           Page 3
                             Implementing Better Management Controls Would
                            Improve the Exempt Organizations Function’s Ability
                             to Properly Oversee and Timely Process Referrals




                                        Results of Review

EO function management believes that referrals are a critical source of work, as they alert the
EO function to potentially serious violations of Federal tax law by tax-exempt organizations.
While the Referral Unit has dramatically improved the timeliness of acknowledgement letters
being sent to submitters of referrals, the EO function faces significant challenges in managing
referrals. Specifically, we determined that the EO function could not readily locate referrals it
received, ensure all referrals it received were controlled, or ensure referrals were being processed
timely. If referrals are not properly accounted for or worked timely, the EO function may not
identify tax-exempt organizations that are potentially in violation of Federal tax law or take
action timely to bring organizations into compliance. As a result, potentially noncompliant
organizations could continue to receive the benefits of their tax-exempt status while not
complying with Federal tax law.
We determined that the Referral Unit 1) could not readily locate 31 out of the 120 referrals we
requested, 2) did not control 350 internal referrals involving partnership returns on the
EO Referral Database upon receipt in the Referral Unit, and 3) had no procedures in place to
follow up on the status of referrals sent to committees. In addition, we identified some
inaccuracies and omissions of key information on the EO Referral Database, which is used to
track and control referrals received by the Referral Unit. As a result, the EO function did not
have control over its referral inventory, which could result in referrals being lost, or not being
worked timely.
We also determined that adequate performance goals had not been established and measures had
not been developed or updated for processing referrals. For example, Referral Unit management
stated that current measures could not be met and needed to be reconsidered because the time
standards did not take into account unanticipated projects and staffing shortages. Our analyses
of the Referral Unit Database determined that timeliness measures were not being met. For
example, the Internal Revenue Manual (IRM)3 states that Referral Unit employees should make a
determination as to whether a referral should be examined within 60 calendar days of receipt.
However, almost 25 percent of these referrals took more than 120 calendar days to process.
EO function management was aware of deficiencies in the referral process and has been focusing
on making improvements. We believe that implementing better controls to track referrals,
clarifying internal guidance, and implementing goals and measures would help improve the
EO function’s ability to properly oversee referrals. Also, we believe transitioning to a more
robust system for tracking and evaluating referrals would be beneficial, provided resources
become available. If improvements are not made to the referral process, valid referrals of

3
    IRM 4.75.5.5(10)c (May 13, 2005).
                                                                                              Page 4
                             Implementing Better Management Controls Would
                            Improve the Exempt Organizations Function’s Ability
                             to Properly Oversee and Timely Process Referrals



significant noncompliance could be lost or referrals may not be ready when new examination
cases are needed.

The Referral Unit Dramatically Improved Its Timeliness for
Acknowledging Receipts of Referrals
IRM guidelines4 state that referrals received from             The EO function dramatically
non-IRS sources should be acknowledged within                   improved the timeliness of
21 calendar days of receipt. The intent of this                acknowledgement letters sent
requirement is to assure the sources of these referrals          to submitters of referrals.
that the IRS is taking taxpayer allegations seriously and
is monitoring compliance.
Between October 1, 2009, and June 17, 2011, we
determined acknowledgement letters for
2,854 (55 percent) of 5,160 non-IRS referrals were not
issued timely. However, we determined the process had
greatly improved over time and that 85 percent of the
more egregious delays were isolated to a specific
three-month period in Fiscal Year 2010. During the period April 1, 2011, through June 17, 2011,
the Referral Unit issued 453 (95 percent) of 478 acknowledgement letters timely to
non-IRS sources.
This improvement is significant because the Treasury Inspector General for Tax Administration
has received complaints in the past about the lack of timely acknowledgement. This can be very
frustrating to taxpayers, who may perceive that the IRS is not interested in their referrals, or may
cause taxpayers to send in duplicate referrals because they are not certain whether the initial
referral was received. Sending acknowledgement letters provides the public with knowledge that
the IRS has received their referrals and will be taking action to evaluate them.

Referrals Were Not Adequately Controlled
While the EO function has improved its timelines related to acknowledgement letters, the
EO function did not ensure referrals were properly accounted for and controlled on the
EO Referral Database. We determined that 1) referrals were missing or could not be readily
located, 2) referrals were not properly controlled on the EO Referral Database upon receipt,
3) no follow-up procedures were in place to determine the status of referrals sent to committees,
4) the EO Referral Database contained some inaccuracies and omissions of key data, and
5) written procedures for processing referrals were incomplete or out of date. If the EO function
cannot properly account for or control referrals, it cannot ensure all referrals of potential

4
    IRM 4.75.5.5(10)a (May 13, 2005).
                                                                                             Page 5
                          Implementing Better Management Controls Would
                         Improve the Exempt Organizations Function’s Ability
                          to Properly Oversee and Timely Process Referrals



violations by tax-exempt organizations are being evaluated properly and tax-exempt
organizations violating the law are identified and brought into compliance.

The Referral Unit could not readily locate referrals in its inventory
The Government Accountability Office’s Standards for Internal Control in the Federal
Government5 states that “…all transactions and other significant events need to be clearly
documented, and the documentation should be readily available for examination.” Furthermore,
“All documentation and records should be properly managed and maintained.” However, we
determined that the Referral Unit was not properly accounting for all referrals in its inventory.
During a site visit, we requested 120 random cases for review from the EO Referral Database.
However, Referral Unit officials could not readily locate 31 (26 percent) of the 120 cases.
Seven weeks after we requested the cases, the EO function provided the following explanation
for the 31 missing cases:
       17 case files were not created for various
        reasons. For example, referrals that were                   The EO Referral Unit could not
        misrouted to the EO function and later forwarded             readily locate some referrals
        to another IRS function were entered on the                         and lost others.
        EO Referral Database, but no documentation was
        maintained to explain why case files were not
        created.
       12 case files were subsequently located.
       2 case files were lost.
We believe the EO function had difficulty locating
referrals because its current inventory control system is
paper driven and labor intensive. Locating referrals is also made more difficult by the fact that
the EO Referral Database does not always indicate where referrals are located or to whom they
are assigned. This, combined with a large volume of referrals, results in referrals being lost,
misfiled, or inaccurately entered on the EO Referral Database.




5
 Government Accountability Office, GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal
Government (Nov. 1999).
                                                                                                       Page 6
                               Implementing Better Management Controls Would
                              Improve the Exempt Organizations Function’s Ability
                               to Properly Oversee and Timely Process Referrals



The Referral Unit was not tracking all referrals on the EO Referral Database upon
receipt
The Government Accountability Office’s Standards for Internal Control in the Federal
Government states that “transactions should be promptly recorded to maintain their relevance
and value to management in controlling operations and making decisions.” However, we
determined that not all referrals were being entered on the EO Referral Database when they were
received. Specifically, 350 referrals involving partnership returns (referred to as Tax Equity and
Fiscal Responsibility Act of 1982 (TEFRA)6 referrals) were not immediately controlled on the
EO Referral Database upon receipt in the Referral Unit.7
This happened because the Referral Unit did not have
enough staff to work TEFRA referrals and the referrals    Three hundred and fifty referrals
were assigned to be worked by an agent in another             were not being tracked as
location. This agent did not always timely update the              part of inventory.
EO Referral Database to control new cases or update the
status of existing cases. EO function management
informed us that the agent deferred establishing the
TEFRA cases on the database to complete more critical
and productive work. While general referral guidelines
require that referrals be established within 21 calendar
days of receipt in the Referral Unit, there were no
specific procedures identified for working
TEFRA referrals. As a result, these cases took longer to
process, and management could not effectively oversee progress in evaluating these referrals.
Delays in establishing these TEFRA referrals on the EO Referral Database increase the risk that
these referrals will be lost, not reviewed, or not timely reviewed. Additionally, without an
adequate inventory control system, EO function management cannot properly monitor its referral
process, particularly when the database does not always track who specifically is working the
referral at any point in time.
Management Actions: During the audit, we determined that some TEFRA referrals were not
on the EO Referral Database. After discussing this with Referral Unit management, 350 TEFRA
referrals were added to the EO Referral Database and another agent was trained to evaluate
TEFRA referrals. Subsequently, all TEFRA referrals were transferred to the Referral Unit in
Dallas, Texas, to be reviewed and all future TEFRA referrals will be processed in the Dallas
Referral Unit.



6
    Pub. L. No. 97-248, 96 Stat. 324 (codified in scattered sections of 26 U.S.C.).
7
    See Appendix IV for details.
                                                                                           Page 7
                              Implementing Better Management Controls Would
                             Improve the Exempt Organizations Function’s Ability
                              to Properly Oversee and Timely Process Referrals



Procedures were not in place to determine the status of referrals sent to
committees
Standards for Internal Control in the Federal Government states that managers “…need to
compare actual performance to planned or expected results.” However, we determined the
Referral Unit did not have any follow-up procedures for determining the status of referrals sent
to the committees for further review. This control was not in place because the EO Referral
Database was not set up to track time spent on cases to make it easy to follow up on cases that
may have been outstanding for some time in committees.
Management Actions: During our review, Referral Unit management assigned a reviewer to
send periodic e-mails to committee members to monitor the status of referrals sent to the
committees. In addition, a Referral Unit reviewer developed a spreadsheet to track cases sent to
two of the three committees.

The EO Referral Database contained some inaccuracies and omissions of key
information

The EO Referral Database is used to track and monitor                         The EO Referral Database
                                                                               included inaccurate or
the inventory of referrals received by the Referral Unit.
                                                                               missing information in
However, we found inaccuracies and omissions of key                             more than half of the
data in the database that makes it difficult to use for                          cases we reviewed.
tracking referrals. Based on our sample of 89 referral
cases,8 we identified inaccuracies and omissions of key
information on the EO Referral Database involving
48 (54 percent) of the 89 referral cases.9 Figure 2
provides a list of inaccurate and missing information we
found in our review of the EO Referral Database.




8
    Our sample initially included 120 cases; however, only 89 cases could be located timely for review.
9
    See Appendix IV for additional details.
                                                                                                          Page 8
                            Implementing Better Management Controls Would
                           Improve the Exempt Organizations Function’s Ability
                            to Properly Oversee and Timely Process Referrals



       Figure 2: Inaccurate and Missing Information on the EO Referral Database

                                                                                                 Number of
                                                                                                  Database
                                                                                                Entries With
     Invalid Data                         Consequence of Invalid Data                           Invalid Data10
     Inaccurate or Missing Source         Without valid source codes, the                              42
     Code                                 EO function will be unable to link its
                                          examinations with the source of referrals
                                          and, subsequently, will be unable to track
                                          the more productive sources of referrals.
     Inaccurate Received Date             Without valid received dates, the IRS                        12
                                          cannot accurately determine when the
                                          submitter originally sent the referral, how
                                          long it has been evaluating a referral, and
                                          if actions are being completed timely.
     Missing Name and Address of          If a valid name and address is not entered                    1
     Person Submitting the Referral       on the EO Referral Database, an
                                          acknowledgement letter will not be sent
                                          and the taxpayer who sent the referral will
                                          not know whether the referral is being
                                          evaluated by the IRS. As a result, the
                                          taxpayer may become frustrated and send
                                          in a duplicate referral.
     Acknowledgement Letter Not           If the EO Referral Database does not                          1
     Recorded on the Database             show the IRS acknowledged receipt,
                                          multiple copies of the acknowledgement
                                          letter may be sent to the submitter.
 Source: Our review of 89 case files and associated records on the EO Referral Database.

We attributed these inaccuracies to transcription errors and employee oversight. However, we
also noted controls were not in place to prevent or detect these errors. The EO Referral Database
was created without validity checks to ensure that certain key fields are entered or entered values
are reasonable. In addition, no procedures exist to quality review the data in the database
periodically, such as a manager spot checking the accuracy of data input to the database.


10
  Entries refer to data fields on the EO Referral Database that have inaccurate or missing data. This column will
not add up to 48 because some records had more than one data field with inaccurate data.
                                                                                                            Page 9
                             Implementing Better Management Controls Would
                            Improve the Exempt Organizations Function’s Ability
                             to Properly Oversee and Timely Process Referrals



Management Actions: During our review, Referral Unit management stated that the Referral
Unit planned to develop procedures that will include a goal to review three open and/or closed
cases per employee per month.
We also found the referral inventory was overstated when a referral record was established on
the EO Referral Database with the wrong Employer Identification Number. This occurred
because referrals were sometimes established with an incorrect Employer Identification Number
when the referral lacked specificity regarding the tax-exempt organization potentially violating
Federal tax law. Once the correct Employer Identification Number was identified as a result of
additional research, a new case was established with the correct Employer Identification
Number. However, the record with the wrong Employer Identification Number was not deleted
on the EO Referral Database. EO function management indicated there were no procedures in
place to address this problem and no specific category on the database to show that the referral
needs to be “closed due to input error.” Overstating the number of referrals may hinder
EO function management’s ability to manage resources effectively.
In addition to inaccurate information input on the EO Referral Database, we determined that
controls related to the receipt of referrals need to be improved. Specifically, we were unable to
validate the accuracy of the date the referral was received in the Referral Unit for 17 (19 percent)
of the 89 referrals reviewed. These referrals did not have a received date stamp indicating when
they came into the Referral Unit. Many of the referrals were immediately shipped to another
office without a date stamp. We could not determine why the remaining referrals had no date
stamp. Without the proper date stamps on the referral, the EO function cannot ensure the
accuracy of its database or properly monitor the status of referrals in the Unit.

Written procedures for working referrals were inadequate
Internal controls should be designed to ensure
management’s directives are carried out. While the            Guidelines for working referrals
EO function had developed multiple desk procedures             were incomplete and were not
and an IRM11 section for working referrals, these                       up to date.
procedures were not complete or consistent, and
information appeared to be out of date.
For example:
          Approximately 800 TEFRA cases were on the
           EO Referral Database; however, desk procedures
           did not include guidance for working
           TEFRA cases, similar to other types of cases.



11
     IRM 4.75.5 (May 13, 2005).
                                                                                            Page 10
                             Implementing Better Management Controls Would
                            Improve the Exempt Organizations Function’s Ability
                             to Properly Oversee and Timely Process Referrals



        The IRM states that committee members should use the “reasonable belief standard”12
         when determining whether referrals should result in an examination. However, none of
         the desk procedures we reviewed stated that this standard should be used, and neither the
         IRM nor the desk procedures state that agents evaluating referrals in the Referral Unit
         should also be using this standard.
        From discussions with personnel in the Referral Unit, we determined the actions they
         take to process referrals. However, these actions do not always align with the procedures
         set forth in the IRM because the IRM has not been updated since May 2005.13 For
         example, the IRM states that the EO function will retain all referrals and source
         documents regardless of whether the referral results in an examination, but Referral Unit
         employees were not always establishing misroutes on the EO Referral Database, creating
         files, or retaining any copies. In addition, the Referral Unit has more up-to-date desk
         procedures that state misroutes should be established on the database but that no files
         need to be created and no copies made. However, these desk procedures also do not
         always align with the actions that are actually being taken to evaluate referrals.
EO function officials stated that management turnover had prevented the EO function from
reviewing and updating its procedures. However, EO function officials have stated that they are
committed to making improvements to the referral process, and we observed changes being
made. It will be important for EO function management to codify improvements made to
processes. If improvements are not documented, new employees and managers that are assigned
to work and oversee referrals may not be aware of the correct procedures and may begin working
referrals incorrectly or using a process that no longer is the most effective or efficient.

Recommendations
To provide better inventory controls and management oversight of the referral process, the
Director, EO, Tax Exempt and Government Entities Division, should:
Recommendation 1: Ensure all referrals are properly controlled by timely establishing
referrals on the EO Referral Database, timely updating the EO Referral Database to show to
whom referrals are assigned, and date stamping referrals upon receipt in the Referral Unit.
         Management’s Response: IRS management agreed with our recommendation and
         has implemented inventory control procedures to ensure referrals are timely established
         on the EO Database, are timely updated on this database to show to whom they are
         assigned, and are date stamped upon receipt in the Referral Unit.

12
   IRM 4.75.5.7 (May 13, 2005) states that the referral “when considered fairly and in light of other reliable
information, if available, demonstrates that a violation of the Federal tax law occurred or appears likely to lead to the
discovery of a violation upon examination.”
13
   During our audit work, the EO function was in the process of revising the IRM 4.75.5 (May 13, 2005).
                                                                                                               Page 11
                             Implementing Better Management Controls Would
                            Improve the Exempt Organizations Function’s Ability
                             to Properly Oversee and Timely Process Referrals




Recommendation 2: Develop procedures and update guidance to ensure 1) all types of
referrals are addressed and 2) quality review of the EO Referral Database is performed, such as
the manager periodically spot checking the accuracy of the data input to the database.
           Management’s Response: IRS management agreed with our recommendation and
           informed us that the EO function is currently performing quality reviews of referral case
           records and is in the process of developing procedures and updating guidance to ensure
           1) all types of referrals are addressed and 2) quality review of the EO Referral Database
           is performed.
Recommendation 3: Update the EO Referral Database with validity checks to ensure
required information is input in the source code field and reasonable information is input in the
received date field.
           Management’s Response: IRS management agreed with our recommendation and is
           incorporating enhancements into the EO Referral Database that will run validity checks
           to ensure that required information is input in the source code field and that reasonable
           information is input in the received date field.

Performance Goals Were Not Developed and Timeliness Measures
Are Not Being Met
Standards for Internal Control in the Federal Government states that managers “…need to
compare actual performance to planned or expected results … and analyze significant
differences.” However, EO function management had not established performance goals for the
referral process. We believe this occurred due to management turnover in the Referral Unit.
Without performance goals, the IRS will have difficulty assessing its success in processing
referrals as well as knowing whether or not sufficient resources are being applied to the area.
In addition to overall performance goals, the EO function could benefit from developing or
updating timeliness measures (metrics) for completing key steps in the referral process. The
May 2005 IRM14 provided an overall timeliness measure and measures for completing specific
steps when Referral Unit employees evaluate referrals, but did not include this information for
referrals evaluated by committees. During our audit, the EO function began updating its IRM
and considered eliminating most timeliness measures. According to Referral Unit management,
the draft IRM generally did not include measures because the Referral Unit could not meet the
measures that were established in the May 2005 IRM due to staffing issues.




14
     IRM 4.75.5.5(10) (May 13, 2005).
                                                                                             Page 12
                         Implementing Better Management Controls Would
                        Improve the Exempt Organizations Function’s Ability
                         to Properly Oversee and Timely Process Referrals



We analyzed the EO Referral Database and determined that timeliness measures were not being
met. For example, the May 2005 IRM states that Referral Unit employees should make a
determination as to whether a referral should be examined within 60 calendar days of receipt.
However, it took an average 91 calendar days to determine whether or not an examination was
warranted and almost 25 percent of these referrals took more than 120 calendar days to process.
While the IRM did not have a clear overall timeliness measure for committees evaluating
referrals, the Manual stated that committees should decide whether referrals warrant
examinations monthly. However, complex or sensitive referrals evaluated by a three-member
committee averaged 196 calendar days to process. In addition, about 35 percent of committee
referrals took more than 240 calendar days, which is excessive compared to the IRM requirement
for committees to make decisions monthly. Some of the delays in processing committee cases
were due to one committee that did not meet for a four-to-five month period due to staffing
issues.
Without specific or reasonable measures, EO function management cannot tell whether referrals
are being evaluated timely and whether any adjustments are needed for specific steps in the
referral process. If referrals are not being evaluated in a timely manner, referrals of tax-exempt
organizations that potentially have violated Federal tax
law will not be ready when new examination cases are
                                                                 While procedures stated that
needed.                                                         referrals worked in the Referral
We also determined the Referral Unit was not                   Unit should be evaluated within
                                                               60 calendar days of receipt, we
consistently using reports to effectively monitor the age       determined almost 25 percent
of referrals or easily identify over-age referrals. Instead,        were taking more than
Referral Unit management produces a report weekly                    120 calendar days.
with a tally of all the referrals received for the week, the
number of acknowledgement letters sent, the number of
referrals evaluated, the number of referrals awaiting
evaluation, and the total number of referrals where an
examination was recommended but an examination has
not been initiated. In addition, the Referral Unit
manager uses a listing of all referrals sorted by receipt
date to monitor the inventory.
While this is important information, it does not provide
the range of capabilities needed to fully oversee EO function referrals. EO function management
stated that the EO Referral Database does not contain these capabilities because it was developed
as an interim tool for controlling referral inventory while awaiting the development of a Tax
Exempt and Government Entities Division-wide case management system. The EO function is
still using the EO Referral Database because the Division-wide system did not include all the
capabilities that would be needed to process EO function referrals. However, without using
more detailed aging and tracking reports, the Referral Unit cannot easily identify referrals that

                                                                                           Page 13
                        Implementing Better Management Controls Would
                       Improve the Exempt Organizations Function’s Ability
                        to Properly Oversee and Timely Process Referrals



are lost, follow up on specific referrals that have been outstanding for a long time, or identify
referrals that have not been assigned for evaluation. As a result, some tax-exempt organizations
in violation of the law may continue to receive the benefits of their tax-exempt status without
having a timely examination to determine if they are in compliance with Federal tax law.
Management Actions: The EO function decided not to publish the revised IRM that eliminated
many of the measures. In addition, EO function management stated they planned to determine
the feasibility of developing more advanced aging and tracking reports.

Recommendation
Recommendation 4: The Director, EO, Tax Exempt and Government Entities Division,
should provide better controls and monitoring of the referral process by 1) developing and
implementing performance goals to measure the accomplishments of the referral program,
2) developing and updating timeliness measures for referrals evaluated in the Referral Unit and
referrals evaluated by committees, and 3) enhancing existing management reporting to more
effectively monitor the age of referrals in the EO Referral Database inventory and systemically
identify over-age referrals.
       Management’s Response: IRS management agreed with our recommendation and
       as of April 30, 2012, had developed and updated timeliness standards for referrals
       evaluated in the Referral Unit, as well as referrals evaluated by the Referral committee.
       Additionally, management agreed to implement these standards after training is
       delivered. IRS management is developing and will implement performance goals to
       measure the accomplishments of the referral program. IRS management also agreed to
       our monitoring recommendation, immediately following implementation of the
       performance goals and time standards.

Referral Processing Would Benefit From Transitioning to a More
Robust Case Management System
According to EO function officials, the EO Referral Database was developed as a stopgap
measure until the Tax Exempt and Government Entities Division could develop a Division-wide
case management system known as the Tax Exempt and Government Entities Reporting and
Electronic Examination System. This system (now known as the Reporting Compliance Case
Management System (RCCMS)) was developed and is being used by the EO function; however,
many planned capabilities were not delivered because of budget cutbacks. As a result, the
stand-alone EO Referral Database is still in use but does not provide the full range of controls
needed to oversee EO function referrals.




                                                                                          Page 14
                           Implementing Better Management Controls Would
                          Improve the Exempt Organizations Function’s Ability
                           to Properly Oversee and Timely Process Referrals



Not only would transitioning referral processing to the RCCMS potentially correct some of the
issues presented in this report and provide much needed inventory and case management support
to the Referral Unit, it would also:
        Alleviate Security Concerns – EO function officials noted that the EO Referral
         Database may not be compliant with the Federal Information Security Management Act.15
         Therefore, the EO function limits assignments of referral reviews to agents within the
         Dallas, Texas, post-of-duty because it is concerned about an unsecure database being
         accessed from remote posts-of-duty and delays when the system locks up.16 In Fiscal
         Year 2010, the EO function sent agents to Dallas, Texas, to work on backlogs of
         referrals. The RCCMS can be accessed nationwide by EO function agents. Therefore,
         transitioning referrals to the RCCMS would provide flexibility in assigning personnel to
         work referrals.
        Eliminate Reliance on Independent Databases – As noted in a previous audit,17 the
         Tax Exempt and Government Entities Division relies on at least 15 independent
         databases (in addition to the RCCMS) to track issues or results related to referrals,
         examination results, and quality review data. Eliminating stand-alone databases, such as
         the EO Referral Database, would minimize duplication of effort and inefficient use of
         limited resources.
        Eliminate the Current Paper-Driven Process – Currently, referrals are processed using
         a labor-intensive, paper-driven process. Thousands of referrals are filed in storage
         cabinets and some have been lost. Until recently, whenever referral documentation was
         needed by a committee in another part of the country, it was shipped. Referral Unit
         management advised us that the Unit now scans committee referral documentation onto
         the Unit’s shared drive which eliminates paper and mailing costs. However, the Referral
         Unit needs a high-speed scanner to control its entire large inventory of referrals. With the
         addition of a high-speed scanner in the Referral Unit, all referrals could be controlled
         electronically, which would significantly decrease the risk of losing referral
         documentation and would allow documentation to be accessed around the country easily
         and at less cost.




15
   Pub. L. No. 107-347, 116 Stat. 2899 (2002) (codified as amended in 44 U.S.C. §§ 3541-3549).
16
   The scope of our review did not include reviewing the security aspects of the EO Referral Database.
17
   Treasury Inspector General for Tax Administration, Ref. No. 2010-10-020, Additional Actions Are Needed to
Realize Benefits of the Tax Exempt and Government Entities Reporting and Electronic Examination System
(Jan. 2010).
                                                                                                        Page 15
                       Implementing Better Management Controls Would
                      Improve the Exempt Organizations Function’s Ability
                       to Properly Oversee and Timely Process Referrals



EO function officials agreed that transitioning from the
                                                                 Moving to a more robust case
EO Referral Database to the RCCMS would provide a             management system would reduce
more efficient referral process that ensures properly          inefficiencies caused by working
accounting for, acknowledging receipt of, and tracking            and storing paper referrals.
and monitoring of EO function referrals. However,
there are some obstacles to transitioning referrals to the
RCCMS in the near future. For example, although other
Tax Exempt and Government Entities Division functions
are using the RCCMS to control their referral inventory,
the RCCMS lacks the functionality needed for the EO
function to properly manage its large inventory of
referrals. Specifically, EO function management stated
that the RCCMS would need to provide 1) case
management and accomplishment reports to effectively manage the EO referral inventory and
2) a quality review process to effectively monitor, measure, and improve the quality of the
referral review process. Therefore, resources would be needed to upgrade the RCCMS with the
features the EO function needs to adequately track its referrals. In the current budget
environment, any upgrade to the RCCMS will have to compete with other projects for limited
funds. As a result, Tax Exempt and Government Entities Division management did not know
when or if this upgrade would occur.
We understand that referrals have not been transitioned to the RCCMS due to budget issues.
Therefore, in the interim, the EO function will have to continue to make changes to its
labor-intensive, paper-driven process until funding becomes available.

Recommendation
Recommendation 5: The Tax Exempt and Government Entities Division Executive Steering
Committee should evaluate the need to upgrade the RCCMS to support EO function referral
processing to determine whether it should receive priority for additional funding.
       Management’s Response: IRS management agreed with our recommendation and
       the Tax Exempt and Government Entities Executive Steering Committee will evaluate
       the need to upgrade the RCCMS to support EO function referral processing to determine
       whether it should receive priority for additional funding. In conducting this evaluation,
       the Executive Steering Committee necessarily will take into account available resources
       and IRS information technology priorities.




                                                                                         Page 16
                       Implementing Better Management Controls Would
                      Improve the Exempt Organizations Function’s Ability
                       to Properly Oversee and Timely Process Referrals



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the EO function is accurately accounting for
referrals of alleged violations of Federal tax law, acknowledging receipt to submitters, and
tracking and monitoring the time periods for working referrals. To accomplish the objective, we:
I.     Evaluated whether existing processes and procedures provide sufficient guidance related
       to accounting for referrals, acknowledging receipt to the submitter, and tracking and
       monitoring the time periods for working referrals.
       A. Interviewed management and staff responsible for receiving and working referrals to
           obtain an overall understanding of the referral process and how referrals are
           accounted for, acknowledged, tracked, and monitored to ensure actions taken to
           analyze referrals and reach determinations are timely.
       B. Interviewed available (current and prior) committee members to obtain an overview
           of the referral process from the committee perspective.
       C. Interviewed management to obtain their assessments of the key components of the
           referral process that affect tax administration and customer service.
       D. Identified and obtained existing IRM and desk procedures and any planned revisions
           related to the receipt, acknowledgement, tracking, and monitoring of referrals.
       E. Identified the types of reports that the EO Referral Database generates and
           determined how Referral Unit management uses these reports.
       F. Assessed whether existing processes and procedures provide sufficient detail to
           account for, acknowledge receipt of, track, and monitor the timeliness of referral
           work.
       G. Determined whether the Referral Unit has implemented any performance goals to
           measure the progress of referrals worked in the Unit.
II.    Determined whether the EO function properly accounts for referrals, acknowledges
       receipt to the submitter, and tracks and monitors the time periods for working referrals.
       A. Obtained a copy of the EO Referral Database that includes referrals received during
           the period October 1, 2009, through June 17, 2011.
           1. Determined the population of referral cases received from October 1, 2009,
              through June 17, 2011.


                                                                                             Page 17
                           Implementing Better Management Controls Would
                          Improve the Exempt Organizations Function’s Ability
                           to Properly Oversee and Timely Process Referrals



             2. Reviewed the Database to ensure that all required fields were present and whether
                 key field values were reasonable.
       B. Selected a random sample of 120 referrals on the EO Referral Database from a
           universe of 13,770 referrals received in the Referral Unit from October 1, 2009,
           through June 17, 2011, to determine whether referrals were properly accounted for and
           acknowledgement letters were sent to submitters.1 We used a random sample due to
           time constraints and because we did not plan to project our results.
       C. Identified the key steps in the referral process and identified the established criteria the
           Referral Unit had implemented to process the referral from each stage of the process.
       D. Analyzed the referral records from the download of the EO Referral database we had
           obtained (see Step II.A.) to identify the time periods for completing the key steps in
           the referral process.
       E. Obtained the case files for the 89 referrals in Step II.B. and determined if the
           EO Referral Database accurately reflects the 1) dates the referral was received by the
           IRS and the Referral Unit, 2) date the acknowledgement letter was sent, 3) submitter’s
           name and address, 4) source code, and 5) current location of the referral.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: policies and procedures for overseeing and
controlling the EO function referral inventory, performance goals and timeliness measures for
assessing the progress of referrals worked by the Referral Unit, and reports regarding referral
inventory. We evaluated these controls by interviewing EO function management and other
employees in the Referral Unit involved in the EO function referral process, evaluating
information on the EO Referral Database, and reviewing a sample of referrals.




1
 Our initial sample included 120 cases; however only 89 cases could be located timely for review. We reviewed
89 referrals to determine if acknowledgments were sent to non-IRS submitters.
                                                                                                       Page 18
                      Implementing Better Management Controls Would
                     Improve the Exempt Organizations Function’s Ability
                      to Properly Oversee and Timely Process Referrals



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Troy D. Paterson, Director
Thomas F. Seidell, Audit Manager
Theresa M. Berube, Lead Auditor
Donald J. Martineau, Auditor
Michael A. McGovern, Auditor
Carol A. Rowland, Auditor




                                                                                  Page 19
                      Implementing Better Management Controls Would
                     Improve the Exempt Organizations Function’s Ability
                      to Properly Oversee and Timely Process Referrals



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 20
                            Implementing Better Management Controls Would
                           Improve the Exempt Organizations Function’s Ability
                            to Properly Oversee and Timely Process Referrals



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of Information – Actual; 350 TEFRA1 referrals were not controlled or established
    on the EO Referral Database when received in the Referral Unit (see page 5).

Methodology Used to Measure the Reported Benefit:
During the audit, we determined that some referrals involving partnership returns (referred to as
TEFRA referrals) were not on the EO Referral Database. After discussing this with Referral
Unit management, 350 TEFRA referrals were added to the EO Referral Database.

Type and Value of Outcome Measure:
   Reliability of Information – Actual; 48 out of 89 referrals reviewed had inaccurate
    information recorded on the EO Referral Database (see page 5).

Methodology Used to Measure the Reported Benefit:

Based on our sample of 89 referral cases,2 we identified inaccuracies and omissions of key
information on the EO Referral Database involving 48 (56 percent) of the 89 referral cases.3




1
  Pub. L. No. 97-248, 96 Stat. 324 (codified in scattered sections of 26 U.S.C.).
2
  Our sample initially included 120 cases; however, only 89 cases could be located timely for review.
3
  Some of the referrals had multiple issues identified.
                                                                                                        Page 21
        Implementing Better Management Controls Would
       Improve the Exempt Organizations Function’s Ability
        to Properly Oversee and Timely Process Referrals



                                                    Appendix V

Management’s Response to the Draft Report




                                                             Page 22
 Implementing Better Management Controls Would
Improve the Exempt Organizations Function’s Ability
 to Properly Oversee and Timely Process Referrals




                                                      Page 23
 Implementing Better Management Controls Would
Improve the Exempt Organizations Function’s Ability
 to Properly Oversee and Timely Process Referrals




                                                      Page 24
 Implementing Better Management Controls Would
Improve the Exempt Organizations Function’s Ability
 to Properly Oversee and Timely Process Referrals




                                                      Page 25
 Implementing Better Management Controls Would
Improve the Exempt Organizations Function’s Ability
 to Properly Oversee and Timely Process Referrals




                                                      Page 26
 Implementing Better Management Controls Would
Improve the Exempt Organizations Function’s Ability
 to Properly Oversee and Timely Process Referrals




                                                      Page 27
